HHS/OIG, Audit - "Review of Medicaid Credit Balance at Baystate Medical Center for the Period Ending June 30, 2006," (A-01-07-00004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Credit Balances at Baystate Medical Center for the Period Ending June
30, 2006," (A-01-07-00004)
July 25, 2007
Complete Text of Report is available in PDF format (755 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective
was to determine whether the credit balances recorded in Baystate Medical
Centers (the Hospital) accounting records for inpatient and outpatient services
for Medicaid beneficiaries represented overpayments more than 60 days old that
the Hospital should have returned to the Medicaid program.  We identified 267
overpayments more than 60 days old that the Hospital should have returned to the
Medicaid program.  As a result, the Hospital did not promptly return Medicaid
overpayments totaling $184,835 ($92,418 Federal share) to the Medicaid program
in accordance with State Medicaid requirements.  We recommended that the
Hospital return these overpayments to the Massachusetts Medicaid program and
continue efforts to identify and return all overpayments to Medicaid in
accordance with State requirements.  The
Hospital agreed substantially with our observations and findings.